<html>
<title> - HEARING TO REVIEW THE NATIONAL VETERINARY MEDICAL SERVICES ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



     HEARING TO REVIEW THE NATIONAL VETERINARY MEDICAL SERVICE ACT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     LIVESTOCK, DAIRY, AND POULTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 7, 2008

                               __________

                           Serial No. 110-36


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov








                  U.S. GOVERNMENT PRINTING OFFICE
50-592                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800; DC area 
(202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            BOB GOODLATTE, Virginia, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        TERRY EVERETT, Alabama
BOB ETHERIDGE, North Carolina        FRANK D. LUCAS, Oklahoma
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 ROBIN HAYES, North Carolina
DENNIS A. CARDOZA, California        TIMOTHY V. JOHNSON, Illinois
DAVID SCOTT, Georgia                 SAM GRAVES, Missouri
JIM MARSHALL, Georgia                JO BONNER, Alabama
STEPHANIE HERSETH SANDLIN, South     MIKE ROGERS, Alabama
Dakota                               STEVE KING, Iowa
HENRY CUELLAR, Texas                 MARILYN N. MUSGRAVE, Colorado
JIM COSTA, California                RANDY NEUGEBAUER, Texas
JOHN T. SALAZAR, Colorado            CHARLES W. BOUSTANY, Jr., 
BRAD ELLSWORTH, Indiana              Louisiana
NANCY E. BOYDA, Kansas               JOHN R. ``RANDY'' KUHL, Jr., New 
ZACHARY T. SPACE, Ohio               York
TIMOTHY J. WALZ, Minnesota           VIRGINIA FOXX, North Carolina
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
STEVE KAGEN, Wisconsin               JEFF FORTENBERRY, Nebraska
EARL POMEROY, North Dakota           JEAN SCHMIDT, Ohio
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
JOHN BARROW, Georgia                 TIM WALBERG, Michigan
NICK LAMPSON, Texas                  BOB LATTA, Ohio
JOE DONNELLY, Indiana
TIM MAHONEY, Florida

                                 ______

                           Professional Staff
                    Robert L. Larew, Chief of Staff
                     Andrew W. Baker, Chief Counsel
                 April Slayton, Communications Director
           William E. O'Conner, Jr., Minority Staff Director

                                 ______

             Subcommittee on Livestock, Dairy, and Poultry

                   LEONARD L. BOSWELL, Iowa, Chairman

KIRSTEN E. GILLIBRAND, New York      ROBIN HAYES, North Carolina,
STEVE KAGEN, Wisconsin                    Ranking Minority Member
TIM HOLDEN, Pennsylvania             MIKE ROGERS, Alabama
JOE BACA, California                 STEVE KING, Iowa
DENNIS A. CARDOZA, California        VIRGINIA FOXX, North Carolina
NICK LAMPSON, Texas                  K. MICHAEL CONAWAY, Texas
JOE DONNELLY, Indiana                JEAN SCHMIDT, Ohio
JIM COSTA, California                ADRIAN SMITH, Nebraska
TIM MAHONEY, Florida                 TIM WALBERG, Michigan

              Chandler Goule, Subcommittee Staff Director

                                  (II)


















                             C O N T E N T S

                              ----------                              
                                                                   Page
Boswell, Hon. Leonard L., a Representative in Congress from Iowa, 
  opening statement..............................................     1
    Prepared statement...........................................     2
Hayes, Hon. Robin, a Representative in Congress from North 
  Carolina, opening statement....................................     3
    Prepared statement...........................................     4
Kagen, Hon. Steve, a Representative in Congress from Wisconsin, 
  opening statement..............................................     4
Smith, Hon. Adrian, a Representative in Congress from Nebraska, 
  prepared statement.............................................     5

                               Witnesses

Kingston, Hon. Jack, a Representative in Congress from Georgia, 
  opening statement..............................................     6
    Prepared statement...........................................     8
Buchanan, Dr. Gale, Under Secretary for Research, Education and 
  Economics, U.S. Department of Agriculture, Washington, D.C.; 
  accompanied by Dr. Ralph Otto, Associate Administrator, 
  Cooperative State Research, Education, and Extension Service, 
  U.S. Department of Agriculture.................................    17
    Prepared statement...........................................    19
    Responses to submitted questions.............................    41
Hammer, D.V.M., Gregory S., President, American Veterinary 
  Medical Association; Staff Veterinarian, Owner/Partner, and 
  Corporate Officer, Brenford Animal Hospital, Dover, DE.........    28
    Prepared statement...........................................    31

 
     HEARING TO REVIEW THE NATIONAL VETERINARY MEDICAL SERVICES ACT

                              ----------                              


                       THURSDAY, FEBRUARY 7, 2008

                  House of Representatives,
     Subcommittee on Livestock, Dairy, and Poultry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:42 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Leonard 
L. Boswell (Chairman of the Subcommittee) presiding.
    Members present: Representatives Boswell, Kagen, Cardoza, 
Hayes, Moran, and Smith.
    Staff present: Claiborn Crain, Alejandra Gonzalez-Arias, 
Chandler Goule, Tyler Jameson, John Riley, April Slayton, 
Kristin Sosanie, John Goldberg, and Jamie Weyer.

OPENING STATEMENT OF HON. LEONARD L. BOSWELL, A REPRESENTATIVE 
                     IN CONGRESS FROM IOWA

    The Chairman. We will go ahead and call our hearing to 
order and deal with our opening statements and proceed. So I 
want to wish you a good morning. I would like to thank everyone 
for joining us to discuss a very important issue to rural 
America and food security across the country. A special thanks 
to our witnesses for appearing before this Committee today. I 
know everyone is very busy with farm bill discussions and we 
are as well. I think this issue is extremely important and I do 
not wish to delay this hearing any further.
    Having spent much of my life involved in animal agriculture 
and on many occasions having had to employ a veterinarian, I 
understand many of the issues that affect the industry 
firsthand. The National Veterinary Medical Service Act was 
established to address a very specific problem within the 
animal health field. With the average veterinary student 
graduating with over $100,000 in debt, they are looking for 
high-paying jobs. The National Veterinary Medical Service Act 
was created to assist by repaying loans for veterinarians who 
practice in underserved areas. As I travel in my district, 
large-animal veterinarians are in short supply. In the 3rd 
District of Iowa, which I represent, there are over 1.5 million 
food animals with only 48 food-animal veterinarians. That is 
over 32,000 animals per veterinarian. This is concerning not 
only for rural communities but also for food safety. This Act 
will not only increase the veterinarians in certain areas of 
the country but also improve the nation's emergency 
preparedness and response capability in the event of an animal 
disaster.
    Research has shown that the demand for large-animal 
veterinarians will increase by 13 percent a year with four in 
every 100 positions remaining vacant. With just over 250 
graduates from the veterinary schools going into livestock-
related fields, this is a crisis. These large-animal 
veterinarians are our first line of defense against animal 
disease outbreaks that can lead to serious health problems. I 
see this issue pop up in Iowa's Veterinary School at Iowa State 
University, and over the past 4 years on average just under 17 
percent of their total graduates entered large-animal 
practices. In 2003, the National Veterinary Medical Service Act 
was signed into law with Congress reporting $500,000 the first 
fiscal year in 2006, $500,000 for Fiscal Year 2007 and $800,000 
for the current fiscal year. But, USDA has yet to use the money 
to begin the rulemaking process, rendering the program 
nonfunctional. I look forward to hearing from our witnesses 
today. I am hopeful that we will hear what the issues USDA are 
having with implementation of this program and how they propose 
to address the growing need in rural communities.
    I would like to personally welcome Congressman Jack 
Kingston, who will be testifying before the Committee shortly. 
Congressman Kingston serves on the Agriculture Appropriations 
Committee and we are very interested in his testimony since he 
has been directly involved in appropriating funding for the 
National Veterinary Medical Service Act.
    [The prepared statement of Mr. Boswell follows:]

  Prepared Statement of Hon. Leonard L. Boswell, a Representative in 
                           Congress From Iowa
    Good afternoon, I would like to thank everyone for joining us today 
to discuss a very important issue to rural America and food security 
across the country. A special thanks to our witnesses for appearing 
before the Subcommittee today. I know everyone is very busy with farm 
bill discussions but I think this issue is extremely important and did 
not wish to delay this hearing further.
    Having spent most my life involved in animal agriculture and on 
occasion having had to employ a veterinarian, I understand many of the 
issues that affect the industry first hand. The National Veterinary 
Medical Service Act was established to address a very specific problem 
within the animal health field. With the average veterinary student 
graduating with over $100,000 in debt they are looking for high paying 
jobs. The National Veterinary Medical Service Act was created to repay 
loans for veterinarians who practice in underserved areas.
    As I travel in my district, large animal veterinarians are in short 
supply. In the 3rd District of Iowa, which I represent, there are just 
over 1.5 million food animals and just 48 food animal veterinarians. 
That's over 32,000 animals per veterinarian. This is concerning not 
only for rural Iowa communities but also for food safety. This Act will 
not only increase the veterinarians in certain areas of the country but 
also will improve the nation's emergency preparedness and response 
capability in the event of an animal disaster.
    Research has shown that the demand for large animal veterinarians 
will increase by 13 percent a year with four in every 100 positions 
remaining vacant.
    With just over 250 graduates from veterinary schools going into 
livestock related fields this is a crisis. These large animal 
veterinarians are our first line of defense against animal disease 
outbreaks that can lead to serious health problems. I see this issue 
pop up in Iowa's large veterinarian school--Iowa State University. Over 
the past 4 years on average just under 17 percent of their total 
graduates entered large animal practices.
    In 2003, the National Veterinary Medical Service Act was signed 
into law with Congress appropriating $500,000 for Fiscal Year 2006, 
$500,000 for Fiscal Year 2007, and $800,000 for this fiscal year but, 
USDA has yet to use that money to begin the rulemaking process--
rendering the program non-functional.
    I look forward to hearing from our witnesses today. I am hopeful 
that we will hear what the issues USDA are having with the 
implementation of this program and how they propose to address the 
growing need in rural communities. I would like to personally welcome 
Congressman Jack Kingston who will be testifying before the Committee 
shortly. Congressman Kingston serves on the Agriculture Appropriations 
Committee and I am very interested in his testimony since he has been 
directly involved in appropriating funding for the National Veterinary 
Medical Service Act.
    At this time I would like to recognize my Ranking Member and good 
friend Robin Hayes from North Carolina for any opening remarks he would 
like to make.

    The Chairman. At this time I would like to recognize our 
Ranking Member and my good friend, Robin Hayes from North 
Carolina, for any remarks that he would like to make.

  OPENING STATEMENT OF HON. ROBIN HAYES, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Mr. Hayes. Thank you, Mr. Chairman, and welcome, 
Congressman Kingston. We appreciate your being here, and if 
USDA had done what they should have done, we wouldn't have to 
be here today.
    Again, thank you, Mr. Chairman, for holding this hearing. 
Like you, I am concerned about the lack of progress from USDA 
in implementing the National Veterinary Medical Services Act of 
2003. In ironing out the details of the legislation, this 
Committee worked very closely with the Department to ensure 
proper implementation of the program. The law provided 
seemingly simple and straightforward authorization for the 
Department to offer incentives to large-animal veterinarians to 
practice in underserved rural communities. The incentive, which 
was suggested by USDA, was to offer assistance in repaying a 
portion of the practitioner's educational loans. An earlier 
version of the legislation introduced in the 107th Congress, 
H.R. 1943, had also contemplated a scholarship program. In 
technical discussions with USDA, we were informed that it would 
be difficult, if not impossible, for USDA to enforce the 
service requirement after the scholarship had already been 
paid. So this provision was dropped. I will also add that at 
USDA's request the final law provides the Secretary with the 
authority to offer an increased incentive for those accredited 
practitioners who agreed to assist USDA in the event of an 
animal health emergency. On July 29, 2003, Chairman Goodlatte 
received a legislative report signed by then-Secretary of 
Agriculture Veneman affirming Administration support for the 
legislation and recommending that the bill be enacted with the 
final language reflecting changes USDA had suggested. Each and 
every one of USDA's suggested changes were made and the bill 
was signed into law by President Bush December 6, 2003. Nearly 
4 years after enactment, Under Secretary Buchanan sent a letter 
to Chairman Peterson outlining a number of reasons why the 
Department would not be able to implement the legislation 
despite the fact the Department had received appropriations to 
do so.
    Mr. Chairman, to the extent that USDA's current concerns 
are valid, I am certainly willing to roll up my sleeves and 
work to resolve any issues. I am, however, very frustrated that 
it has taken USDA so long to bring these concerns to our 
attention, particularly since we allowed USDA the opportunity 
to assist us in drafting the legislation in the first place. I 
hope during today's hearing we can figure out a way to quickly 
move this program forward. It will have great value for 
veterinarians graduating from first-class veterinary programs 
like the one at North Carolina State University.
    Mr. Chairman, thank you for holding the hearing.
    [The prepared statement of Mr. Hayes follows:]

 Prepared Statement of Hon. Robin Hayes, a Representative in Congress 
                          From North Carolina
    Thank you, Mr. Chairman, for holding this hearing. Like you, I am 
concerned about the lack of progress the USDA has made in implementing 
the National Veterinary Medical Service Act of 2003.
    In ironing out the details of the legislation this Committee worked 
very closely with the Department to ensure proper implementation of the 
program. This law provided a seemingly simple and straightforward 
authorization for the Department to offer incentives to large animal 
veterinarians to practice in underserved rural communities. The 
incentive, which was suggested by USDA, was to offer assistance in 
repaying a portion of the practitioner's educational loans. An earlier 
version of the legislation introduced in the 107th Congress (H.R. 1943) 
had also contemplated a scholarship program. In technical discussions 
with USDA, we were informed that it would be difficult if not 
impossible for USDA to enforce the service requirement after the 
scholarship had already been paid, so this provision was dropped. I 
would also add that at USDA's request, the final law provided the 
Secretary with the authority to offer an increased incentive for those 
accredited practitioners who agreed to assist USDA in the event of an 
animal health emergency.
    On July 29, 2003, Chairman Goodlatte received a legislative report 
signed by then-Secretary of Agriculture Veneman affirming the 
Administration's support for the legislation and recommending that the 
bill be enacted if the final language reflected the changes that USDA 
had suggested. Each and every one of USDA's suggested changes were made 
and the bill was signed into law by President Bush on December 6, 2003.
    Nearly 4 years after enactment, Under Secretary Buchanan sent a 
letter to Chairman Peterson outlining a number of reasons why the 
Department would not be able to implement the legislation--despite the 
fact that the Department had received appropriations to do so.
    Mr. Chairman, to the extent that USDA's current concerns are valid, 
I am certainly willing to roll up my sleeves and work to resolve any 
issues. I am however very frustrated that it has taken USDA 4 years to 
bring these concerns to our attention, particularly since we allowed 
USDA the opportunity to assist us in drafting the legislation in the 
first place.
    I hope during today's hearing that we can figure out a way to 
quickly move this program forward. I know it will have great value for 
veterinarians graduating from first-class veterinarian programs like 
the one at North Carolina State University. Mr. Chairman, thank you for 
holding this hearing.

    The Chairman. Thank you, Congressman Hayes.
    I will ask other Members on the dais if they have a 
statement--I was going to ask you to put it into the record, 
but I suppose that if you want to make a short statement, I 
would acknowledge that.
    Mr. Kagen. Very short.
    The Chairman. I recognize Mr. Kagen.

  OPENING STATEMENT OF HON. STEVE KAGEN, A REPRESENTATIVE IN 
                    CONGRESS FROM WISCONSIN

    Mr. Kagen. I will include my comments for the record but I 
have to say that this Act is necessary and the help for the 
USDA in oversight is necessary because the animals can't fix 
themselves. We need more doctors and more nurses and we need 
many more veterinarians, not just in Wisconsin but across the 
country. One of the great problems this country is facing as 
our human population ages and the number of our animals 
increase is the shortage of qualified veterinarians and the 
schools that train these individuals. I am very much 
appreciative of you holding this hearing today, and I will 
leave my comments at that.
    Thank you very much for the opportunity.
    The Chairman. You are welcome, Mr. Hayes.
    We will go ahead then to--Mr. Hayes, did you want to make 
any short statement?
    Mr. Moran. Mr. Chairman, thank you. Hayes is my hometown 
and Mr. Hayes is the gentleman----
    The Chairman. Oh, I am sorry. You know, we just talked 
about a little bit, that he ought to honor you because you 
named your hometown after him.
    Mr. Hayes. The Chairman knew how much I thought of you so I 
apologize for him trying to give my name to you.
    The Chairman. Excuse me.
    Mr. Moran. Mr. Chairman, I was thinking I was being ignored 
and I am happy to reserve my remarks until I have the 
opportunity to ask some questions of the witnesses. I do 
appreciate that I am here with your permission. This is the one 
Subcommittee that I am not a Member of. I consider this issue 
so significant and USDA's inaction so appalling that I asked 
for the opportunity to join you, and I appreciate you granting 
me that chance. I look forward to questioning the witnesses and 
I appreciate Mr. Kingston's interest in this. If we are going 
to get this resolved, the stick that Mr. Kingston can provide 
very well may be useful to us, and again I thank you for 
allowing me to join you this morning.
    The Chairman. Well, at this time we will get the record in 
order. Thank you, Mr. Moran. I would like to ask unanimous 
consent for him to join us on the Subcommittee, he is on the 
full Committee, to participate in today's hearing. Without any 
objection, so ordered.
    I would ask that all other Members submit their statements 
for the record.
    [The prepared statement of Mr. Smith follows:]

 Prepared Statement of Hon. Adrian Smith, a Representative in Congress 
                             From Nebraska
    Good morning and thank you, Mr. Chairman.
    The food animal industry is important to the economy of Nebraska's 
Third District. Our veterinary workforce is critical to maintaining the 
health and safety of our food supply, putting our veterinarians on the 
front lines of national security. Their vigilance is critical in 
protecting Americans from a bioterrorist attack.
    We need to encourage more young people to pursue veterinary careers 
in large animal medicine. We should expand enrollment at our veterinary 
schools so that we are graduating enough students to replace the aging 
veterinary workforce. We should investigate the opportunities to build 
new veterinary medical schools in states which lack these facilities. I 
am proud of the unique collaboration between the University of 
Nebraska--Lincoln and Iowa State University to offer a state-of-the-art 
veterinary medical program for Nebraska students. The inaugural class 
of this program began last fall. I look forward to seeing many students 
graduate from this program and practice in underserved areas of 
Nebraska.
    I am committed to exploring means which will enable more 
veterinarians to operate food animal practices in rural areas. I hope 
this hearing today will be the first step toward quickly accomplishing 
that goal. I want to thank our witness for testifying, and the 
Committee and the Chairman for holding this hearing. I yield back.

    The Chairman. At this time I would like to welcome 
Congressman Kingston and we are anxious to hear your comments.

 STATEMENT OF HON. JACK KINGSTON, A REPRESENTATIVE IN CONGRESS 
                          FROM GEORGIA

    Mr. Kingston. Thank you, Mr. Chairman. It is great to be 
with you and I certainly appreciate the opportunity to testify. 
When I first came to Congress, I had the honor of serving on 
the Agriculture Committee, and ``Kika'' de la Garza, whose 
portrait is of course right above you, was Chairman at the time 
and I grew to love the Committee and this room. It has been a 
great bipartisan Committee and it does a lot of work. When I 
moved to the Appropriations Committee, I thought maybe we would 
be a little closer dovetailed than we are, but I think that 
this is a great opportunity for us to share our notes and try 
to come up with a solution that will serve both of us. So I am 
glad to be here.
    Our comments have been submitted for the record, so what I 
was going to do to save time for you is to summarize, but I 
want to underscore some of the numbers which you said in your 
opening testimony that I think are very, very important. Of 
8,500 vets in America today, only ten percent are in the food 
animal field and I understand their average age is about 50 or 
somewhere even older than that. The numbers are even more 
shocking when you look at 28 accredited vet schools in the 
United States of America that graduate only 2,600 students a 
year and of those 2,600 only 250 go into rural areas and large 
animals, and to me that says that the demand for the food 
supply veterinarians is going up and yet the availability, the 
shortfall is going down. The shortfall is going up as well, I 
guess you could say. So I think it is very important. And then 
just looking at it from a real-world point of view, if the 
average tuition for vet school is $37,000 to $55,000 a year and 
the debt is about $100,000 and the starting salary is probably 
in the $50,000 to $70,000 range, the students have to go to 
where they can make enough money to repay their debt. It is 
just the law of supply and demand or economics, and as a result 
the rural areas are having quite a crunch.
    You have spoken about Iowa. I know Mr. Moran is passionate 
about the problem in Kansas. You mentioned Wisconsin. It is the 
same way in Georgia, and I have this map that I will submit for 
the record. I know you can't see it very well but on here the 
white flags show where there are no veterinarians. The blues 
show the population areas there are veterinarians because of 
course there is money and house cats. By the way, Mr. Chairman, 
if you ever want to find out how much your family really loves 
the dog more than you, run over it as I did this summer and I 
found out quickly where I ranked. I was on probation until the 
dog fully recovered. But in the meantime, I did see that the 
small animal clinics were doing real well. I don't know, but I 
suspect that a dog is more expensive than a horse these days.
    Here is a typical ad from folks in Georgia. ``Need a 
veterinarian in Folkston, Georgia. Have a commercial building 
on a well-traveled highway that leads to the Okefenokee Swamp. 
Ideal facility and location for a new veterinarian or someone 
who wishes to relocate in a smaller community near the coast.'' 
Everybody who goes to that veterinarian will travel about 25 or 
30 miles just to get there and that ad, I don't know how old it 
is, or how long Folkston has been looking for a veterinarian, 
but they can't get one.
    Now, we have worked closely with Dr. Sheila Allen at the 
University of Georgia, who is the Dean of the Vet School there. 
She told us about a program where they are actually going into 
rural communities now and identifying what I would call 
authentic farm kids. These are kids who were either raised on a 
farm, involved in 4-H, have familiarity with horses and cows, 
have been in livestock shows and so forth. If their grades are 
acceptable, and these kids are identified at the high school 
level, the University of Georgia will guarantee them admittance 
to the Vet School if they stay in line. Even doing something as 
proactive as that doesn't guarantee results. It doesn't fill 
the gap that we are in.
    What we are frustrated about on the Appropriations 
Committee is using your 2003 authorization, we have funded now 
$1.8 million, $500,000 in 2006, $500,000 in 2007 and then in 
the recently passed omnibus $875,000 and still we are getting 
from the USDA that we don't know how to implement this program. 
And yet the USDA isn't coming back to us and saying, ``Here is 
what we need from you, can you give us this addition to the 
authorization language to come up with something.'' It is odd 
that they are saying that because there are so many crop loan 
programs that you would think the USDA would have the expertise 
to get there. There is also in the Department of Health and 
Human Services a rural nurses program which I think could be a 
model for them. I would not want to see this money transferred 
to them but there is a model for it and there are precedents. 
So what we would like to work with you on are the tools the 
USDA needs to implement it and how our Committees can get there 
together.
    So with that, Mr. Chairman, I will yield back, and I have a 
broader statement that has been submitted.
    [The prepared statement of Mr. Kingston follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
     Well, thank you very much. I appreciate those comments and 
painting the picture that you have done. I feel that you are 
right on, and I hope that we can do that. I am going to reserve 
    my questions and let the panel get involved.Mr. Hayes, do 
you have questions for the witness?
    Mr. Hayes. No.
    The Chairman. Mr. Kagen?
    Mr. Kagen. No.
    The Chairman. Mr. Cardoza?
    Mr. Cardoza. Thank you, Mr. Chairman. I will be very brief.
    Mr. Kingston, I appreciate your comments very much. I 
worked on this issue in the legislature in California. I worked 
with UC Davis trying to help. We have a severe shortage in our 
area and I know it to be particularly prevalent where I am 
from. Thank you for your work on it.
    Thank you, Mr. Chairman, for holding this hearing, and as 
Mr. Hayes said, I hope that we can find swift resolution to 
turning this around and providing more veterinarians in the 
areas we need them. Thanks.
    The Chairman. Thank you.
    Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much.
    Mr. Kingston, thank you for your leadership on this issue. 
You and I, and the Chairman and the Ranking Member and other 
Members of Congress met with the Under Secretary late last 
year. My question to you is, have you seen any response, any 
evidence that USDA is progressing in meeting our requests with 
the kinds of things that you asked them during that meeting to 
bring to you? Are we any further along here in February than we 
were last November in resolving this issue?
    Mr. Kingston. Well, there has been a response and there has 
been movement and I do credit Dr. Buchanan for staying engaged 
in it. But, I don't think that the solution that they have 
offered is what the Committee wants at this point and that is 
basically a scholarship program. I believe, philosophically, 
that Congress wants to have the loan repayment program. I 
appreciate the USDA moving forward but I don't think that they 
are where they need to be at this point.
    Mr. Moran. Moving forward perhaps in the wrong direction. I 
will make those my words, not yours, Mr. Kingston.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We are not going to hold you up a long time, Congressman 
Kingston, but could you share what is the support of the 
Appropriations Committee for the NVMSA Program? I know you are 
very adamantly supporting it and we appreciate that. Could you 
just give us a sense of how the rest of the Committee feels 
about it?
    Mr. Kingston. Well, I can't speak for Chairman Rosa DeLauro 
but I do believe that she is very sensitive to rural issues. 
She has a great passion for rural economic development and 
rural well-being just as a general cause. I could speak with 
confidence that the Committee would continue to support this. I 
can also speak with confidence that the Committee is frustrated 
that after $1.8 million, we don't have anything yet; and I 
think the Committee probably would lean to your leadership, 
that is if this Subcommittee says, ``Don't fund it anymore,'' 
we are probably going to move in that direction. If you say, 
``Fund it according to these conditions,'' then we will do 
that. But there is no reason to keep appropriating money 
without your signoff.
    The Chairman. Well, thank you very much. I appreciate that. 
I sense your frustration so we are going to thank you very much 
for coming and joining us today and we will stay in contact.
    Mr. Hayes.
    Mr. Hayes. Mr. Kingston, the University of Georgia, are 
they administering programs every day where they have 
scholarships and they track the students and once they become 
alumni they watch them closely so that they can hopefully get a 
donation out of them? Does there seem to emerge out of that 
model a way that the universities themselves perhaps could do 
this without the pain and delay that we are experiencing here 
today; just as a possibility or any other thoughts you might 
have?
    Mr. Kingston. Well, I think that Dean Allen could probably 
answer that better, and what I might ask you, if you don't 
mind, I can follow up and answer that better and let her give 
you a description. I know that sometimes there is a link in the 
chain of sending somebody to an animal veterinarian for food 
animals. What can happen is, they will go to the CDC, they will 
get a broader education and then after years of continuing 
education they are going back and they say, ``Look at the debt, 
I dug the hole even deeper getting this education. I need to 
settle down in a bigger town and do the cats and dogs instead 
of the horses and cows.'' I don't think the University of 
Georgia or any university would have any say-so in the matter 
even among parties of good faith who enter into some agreement. 
There is no contractual agreement that the student will go back 
to the rural community. But I do think that they do track them 
but they don't control them.
    Mr. Hayes. Well, don't you think they could control them if 
the money was available? Then there is a choice by the student. 
If they want the money, you are going to go to wherever the 
need may be for 2 years in order to meet this obligation. If it 
is working well, 2 years doesn't solve the problems of that 
rural area but the university might send the next student there 
for 2 years. It looks like this could be done without a whole 
lot of trouble and the universities could do it.
    Mr. Kingston. Well, I think one of the things that they are 
doing with that outreach program is identifying kids from rural 
areas who have been on the farm. I have found over the years 
that most people from rural areas eventually want to get back 
to that rural area. I think that not recruiting the kid from 
Atlanta and trying to send him to Folkston but recruiting the 
kid from Folkston and trying to get him to stay in Folkston is 
what they are looking at. I believe that they are being very 
proactive and responsible about that.
    But I want to point out to you, Mr. Chairman, one of the 
things that we all have done in the post-9/11 world is look at 
everything from a terrorism standpoint. If you think about the 
Chinese toxic pet food that really sent a shockwave through 
America in the last couple of years, think what happens if 
there is some kind of a chem-bio attack on our food supply and 
we don't have the veterinarians online out there being able to 
detect it early and come up with that fast solution to a 
planted hoof-and-mouth or an anthrax issue or something like 
that. I do think that there is a value added beyond just making 
sure that the horses and cows are taken care of.
    The Chairman. Thank you very much. We are going to release 
you at this time with the understanding we can talk to you some 
more as we need to, and we appreciate the challenge you have 
given to us. I think you get the picture as I see it and I 
appreciate it very, very much.
    Mr. Kingston. Well, thank you very much, Mr. Chairman, and 
I look forward to continuing to work with you.
    The Chairman. We look forward to working with you, and with 
that, you will be excused with our appreciation.
    We invite the second panel to the table. Incidentally, for 
the Members up here, in your packets you have a map of your 
district showing the situation that faces you. I don't have a 
copy of yours, Robin, it is yours, and so on, but anyway, I 
want to thank staff and particularly Mr. Chandler Goule for 
making sure this happened. Thank you, Chandler. I appreciate 
it. We will be sure to take a look at it. Thanks for your help.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 We thank you for joining us, gentlemen, and appreciate you 
being here, so we will just go ahead and start right off with 
however you want to do it. I think we will just recognize you, 
Dr. Buchanan, to make whatever remarks you would like to make 
and then we will proceed from there. So thanks for being here. 
We are anxious to hear what you have to share with us.STATEMENT 
 OF DR. GALE BUCHANAN, UNDER SECRETARY FOR RESEARCH, EDUCATION 
                      AND ECONOMICS, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.;
            ACCOMPANIED BY DR. RALPH OTTO, ASSOCIATE
           ADMINISTRATOR, COOPERATIVE STATE RESEARCH,
     EDUCATION, AND EXTENSION SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Dr. Buchanan. Chairman Boswell, Ranking Member Hayes and 
other distinguished Members of the Committee, I am Gale 
Buchanan, Under Secretary of Research, Education and Economics 
at the U.S. Department of Agriculture, and I really appreciate 
the opportunity to discuss the National Veterinary Medical 
Service Act with you this morning.
    With me is Dr. Ralph Otto, the Associate Administrator for 
the Cooperative State Research, Education, and Extension 
Service, and Curtis Anderson, Deputy Administrator for Rural 
Utilities Service in the Department.
    As the Under Secretary for Research, Education and 
Economics, I am responsible for four agencies charged in 
advancing science and agriculture. These are the Agriculture 
Research Service, the Cooperative State Research, Education, 
and Extension Service, the Economic Research Service and the 
National Agricultural Statistics Service. It is the Cooperative 
State Research, Education, and Extension Service that has been 
most closely associated with the legislation that we are 
discussing here today.
    In December of 2003, the President signed Public Law 108-
161, the National Veterinary Medical Service Act. Subsequently 
in November of 2005, Congress provided the initial funding for 
NVMSA in Fiscal Year 2006 appropriation for CSREES.
    NVMSA authorizes the U.S. Department of Agriculture to pay 
principal and interest on educational loans of veterinarians 
who agree to work in areas of the country that are underserved 
by veterinarians and underserved disciplines in veterinary 
medicine such as food safety and public health and in 
underserved areas of the Federal Government that require 
veterinary services. The bill also authorizes USDA, in 
emergency situations, to enter into agreements with loan 
repayment program participants to provide services to the 
Federal Government in exchange for salary, travel, per diem 
expenses and additional loan repayment assistance.
    Please let me take a moment to put the work of CSREES into 
context. CSREES accomplishes its mission almost exclusively 
through agreements of one type or another with land-grant 
universities and other universities, research foundations, not-
for-profit entities, state, local and Federal agencies. This is 
significant and has direct bearing on our discussion today. 
Although CSREES has highly effective and efficient systems in 
place to execute and monitor agreements with organizations, it 
does not have corresponding systems to administer loan 
repayments for individuals as required by NVMSA.
    As enacted, the NVMSA authorizes USDA to administer a loan 
repayment program and such programs have never been the 
function of CSREES and would need to be created in order to do 
that. To do this would require considerable resources and 
substantial rulemaking in areas that are new to CSREES. They 
would need rules and regulations to address non-performance, 
verify applicant eligibility, verify debt of the veterinarians, 
background investigation to ensure no warrants or other debts, 
and so forth. In underserved regions of the country, it would 
also require procedures to be developed to keep that list up to 
date. Since we will be able to assist only a few veterinarians 
that are eligible, there will certainly need to be a 
justifiable and defensible selection process for loan repayment 
recipients. Based on the information and guidance received from 
the Department of Health and Human Services, which administers 
loan repayment programs for other occupations, these are just 
some of the new processes USDA would have to put in place. 
These issues have been discussed extensively within USDA and 
with representatives of the American Veterinary Medicine 
Association and American Association of Veterinary Medicine 
Colleges.
    In considering possible implementation strategies, CSREES 
examined the cost involved with various alternatives and 
concluded that there were two general implementation options 
available in the short term. These were, one, to set up a loan 
repayment program that would address the private practitioners, 
and according to the Congressional Budget Office, HHS and our 
agencies, estimates for doing this would consume the 
appropriation; or, utilize existing authorities that are cost-
effective, meet the intent of the legislation and maximize the 
funding that could actually be used for loan repayment. CSREES 
chose the second option as being the most practical and most 
expedient choice available in order to accomplish the intent of 
the legislation.
    USDA recognizes and appreciates the intent of Congress to 
promote more private-sector food-animal veterinarians in rural 
areas and we are continuing to seek the best way to do so 
within the resources that are provided. I am aware of 
alternative proposals that may accomplish the original intent 
of Congress in passing NVMSA while also allowing CSREES to 
implement the program within the agency's current structure. 
One of the possible options is to target funding at veterinary 
students in the form of scholarships. The great majority of 
students of veterinary medicine currently studying in the 
United States are pursuing companion-animal curricula with 
plans to enter private practice in urban or suburban areas of 
the country to treat companion animals. Consequently, a program 
of financial assistance for veterinary students perhaps could 
be designed to provide them incentives for choosing to 
specialize in large and/or food-animal veterinary science.
    I look forward to working with the Committee to examine the 
implications of various alternatives for NVMSA, and this 
concludes my comments. I want to again thank you for the 
opportunity to testify before the Subcommittee regarding this 
Act, and my colleagues and I look forward to responding to your 
questions, sir.
    [The prepared statement of Gale Buchanan follows:]

Prepared Statement of Dr. Gale Buchanan, Under Secretary for Research, 
 Education and Economics, U.S. Department of Agriculture, Washington, 
                                  D.C.
    Chairman Boswell, Ranking Member Hayes, and distinguished Members 
of the Subcommittee, my name is Gale Buchanan, Under Secretary of the 
Research, Education, and Economics Mission Area (REE), United States 
Department of Agriculture (USDA). I appreciate the opportunity to 
discuss the National Veterinary Medical Service Act (NVMSA) with you 
this morning. With me is Dr. Ralph Otto, Associate Administrator for 
the Cooperative State Research, Education, and Extension Service 
(CSREES), and Curtis Anderson, Deputy Administrator for the Rural 
Utilities Service.
    As the REE Under Secretary, I am responsible for four agencies 
charged with advancing science in agriculture. These are the 
Agricultural Research Service (ARS), the Cooperative State Research, 
Education, and Extension Service (CSREES), the Economic Research 
Service (ERS) and the National Agricultural Statistics Service (NASS). 
It is CSREES that has been most closely associated with the legislation 
that we are discussing today.
    In December of 2003, the President signed Public Law 108-161, the 
National Veterinary Medical Service Act. Subsequently, in November 
2005, Congress provided the initial funding for the NVMSA in the Fiscal 
Year 2006 appropriation for CSREES. Consequently, USDA delegated the 
authority for this program to CSREES.
    NVMSA authorizes the Department to pay principal and interest on 
educational loans of licensed veterinarians who agree to work in areas 
of the country that are underserved by veterinarians, in underserved 
disciplines of veterinary practice or in underserved areas of the 
Federal Government. The bill also authorizes USDA, in emergency 
situations, to enter into agreements with loan repayment program 
participants to provide services to the Federal Government in exchange 
for salary, travel, per diem expenses, and additional loan repayment 
assistance.
    Please note that the Administration's FY 2008 Budget request did 
not include funding for this program. Nor did the Administration's FY 
2009 Budget request, which was submitted on February 4th. However, we 
do want to make sure that the funding already provided is utilized as 
effectively as possible to support the goals of the program.
    In that context, let me take a moment to put the work of CSREES 
into context. CSREES accomplishes its mission almost exclusively 
through agreements of one type or another with land-grant and other 
universities, research foundations, not-for-profit entities, and state, 
local, or Federal agencies. This is significant and has direct bearing 
on our discussion today. Although CSREES has highly effective and 
efficient systems in place to execute and monitor agreements with 
organizations, it does not have corresponding systems to administer 
loan repayments for individuals, as is required by the NVMSA.
    As enacted, the NVMSA authorizes USDA to administer a complex loan 
repayment program. Such programs have never been a function of CSREES 
and would need to be created. To do this would require considerable 
resources and substantial rule making in areas that are new to CSREES. 
Setting up such a program would be costly in terms of both time and 
money. It would prolong implementation of the NVMSA and it would 
consume all of the funds appropriated for the act. No appropriated 
funds would be left for actual loan repayments.
    Creating a new loan repayment program within CSREES would require 
hiring personnel with the unique expertise needed to process 
applications, verify applicant eligibility, verify the underlying debt, 
and conduct credit and background checks for outstanding warrants or 
debts. They would need to verify that the applicant is actually 
practicing in an underserved location or specialty in accordance with 
the terms of the loan repayment agreement and they would need rules and 
regulations to address non-performance. In addition, procedures would 
need to be developed to keep the list of underserved regions and 
specialties current.
    Based on information and guidance received from the Department of 
Health and Human Services which administers loan repayment programs for 
other occupations, these are just some of the new processes USDA would 
have to put in place. Estimates from the Congressional Budget Office 
(CBO) support our assessment that the cost of initiating and 
administering the program would exceed the funds appropriated:

        ``H.R. 1367 would also authorize appropriations as necessary to 
        cover the administrative costs of carrying out these programs. 
        CBO estimates that administrative costs would be less than $1 
        million in 2004 and would total $3 million over the 2004-2008 
        period.'' (From the Congressional Budget Office cost estimate 
        of H.R. 1367, dated November 12, 2003.)

    In an effort to implement the program expeditiously, all of these 
concerns have been discussed extensively within USDA and with 
representatives of the American Veterinary Medicine Association and the 
American Association of Veterinary Medicine Colleges.
    In considering possible implementation strategies, CSREES examined 
the costs involved with various alternatives and concluded that there 
were two general implementation options available in the short term. 
These were:

    1. Set up a loan repayment program that would address private 
        practitioners. According to CBO, HHS and USDA estimates, doing 
        this would consume the entire appropriation, leaving no funds 
        for actual loan repayment.

    2. Utilize existing authorities that are cost effective, meet the 
        intent of the legislation, and maximize the funding that could 
        actually be used for loan repayment.

    CSREES chose the second option as being the most practical and most 
expedient choice available.
    CSREES then entered into a reimbursable agreement with the Food 
Safety and Inspection Service (FSIS) in Fiscal Year 2007 to use the 
Fiscal Year 2006 and 2007 NVMSA funds. This agreement allows FSIS to 
add loan repayment incentives to qualifying service agreements in order 
to aid recruitment of food animal veterinarians for designated hard-to-
fill positions in food safety and supply, especially in rural 
communities. This action addresses two specific purposes of the NVMSA, 
which directs the Secretary to consider shortage-areas in public 
health, epidemiology, and food safety, as well as ``areas of veterinary 
need in the Federal Government.''
    Meanwhile, the Department recognizes and appreciates the intent of 
Congress to promote more private-sector food animal veterinarians in 
rural areas and we are continuing to seek the best way to do so, within 
the resources provided. I look forward to working with the Committee on 
this program.
    This concludes my comments. I want to thank you again for the 
opportunity to testify before the Subcommittee regarding the National 
Veterinary Medical Service Act. My colleagues and I look forward to 
responding to your questions.

    The Chairman. Well, thank you for being here, and I want to 
say right up front, we are not looking for any adversarial, you 
know, head-on on this thing. We just want something done, and I 
appreciate your comments and I do appreciate your long history 
of serving. Thank you for that. I want you to understand that.
    Dr. Buchanan. Thank you.
    The Chairman. But you say you thought you met the intent. 
We don't think so, and I think you get that from listening to 
Mr. Kingston, myself and Mr. Hayes and the rest. We are just 
very concerned that after 5 years we are still at square one. I 
don't feel satisfied with that situation. There is still no 
money going to the graduating veterinarians and the shortage is 
building and we all know that it is. So maybe there wasn't 
enough money to do what you would have liked to have done, but 
it seems to me like with $1.8 million you could have started 
and we would be somewhere down the track. I would hope that we 
would have some comments about that.
    Mr. Hayes, do you have any questions at this time? You do 
not.
    Mr. Kagen? He does. Mr. Kagen, you are recognized.
    Mr. Kagen. Thank you very much.
    First of all, Dr. Buchanan, thank you for your sacrifice by 
working as a public servant. I appreciate it, and I appreciate 
the work that you are trying to do. I have some questions. You 
are a veterinarian. Is that true?
    Dr. Buchanan. No, sir.
    Mr. Kagen. So you are a doctor of?
    Dr. Buchanan. Plant physiology.
    Mr. Kagen. But certainly you are interested in plants being 
eaten by animals----
    Dr. Buchanan. Oh, absolutely.
    Mr. Kagen.--by cows in Wisconsin. So in Wisconsin 
Veterinary Medical School, the predominance of the students are 
not men, they are women. There might be 67 out of 73 chairs 
occupied by women and they may not choose to go into the caring 
of larger animals. So have you considered that as one of the 
barriers to people not being interested in these grant monies?
    Dr. Buchanan. Can you help me with that? I am not sure I 
can answer that.
    Dr. Otto. Yes, sir. We are familiar with the statistics 
regarding the gender balance in current veterinary students. 
Our sense is that if we looked at a scholarship option, and we 
are not necessarily advocating that, it is not part of our 
President's budget at this point. If we considered that as an 
option, we might be able to attract students into veterinary 
schools that otherwise would not be able to apply, would not 
have the funding. Point one, we think we would be increasing 
the pool of veterinary candidates. Point two, such a program 
would stipulate that upon entry, they choose a large or food-
animal curriculum as opposed to specializing in companion 
animals. We all know women who are large-animal veterinarians. 
I don't think that is a particular barrier but I do think the 
costs involved certainly could be a barrier.
    Mr. Kagen. Well, if it is a cost issue, why is it that the 
President's budget would line out and zero fund this program?
    Dr. Otto. This program is a Congressional initiative that 
is not part of the President's budget.
    Mr. Kagen. All right. So if we put money in, you will 
execute?
    Dr. Buchanan. Let me point out that obviously as Dr. Otto 
said, this is a Congressional initiative and not one of our 
budget. We know we are in tight budget times and we have had to 
prioritize. Of course we looked at all the requirements we 
have; of course, the CSREES has responsibility for research, 
education, and extension; and of course we have concern for all 
of the educational side for agriculture. The workforce 
development is a very critical part of our total portfolio. 
Certainly veterinary medicine is one of those important areas, 
but it is not the only area, so we have tried to look at that 
total effort. To be honest, in prioritizing things, this has 
not been one of our priorities, but it is something that we 
consider important, but there are a lot of important things 
that we can't address simply because we don't have adequate 
funding.
    Mr. Kagen. Your response may reflect a difference in our 
values and what we think is important. In my district, 
northeast Wisconsin, the 8th District of Wisconsin, I have the 
honor of representing 700,000 people and 500,000 animals. So I 
think our values may not be consistent with yours. But 
certainly, when the Congress has it in its mind to solve a real 
shortage problem by providing appropriations and funding for 
students to enter and come out of veterinary school without 
profound debt, I would appreciate it very much if you would 
take our value system and implement it. That is part of your 
job, isn't it?
    Dr. Buchanan. Well, of course, we have tried to address 
this, and of course, the legislation provided for three 
categories. The first one was for veterinarians in underserved 
areas, but also for veterinarians in underserved areas of 
veterinary medicine such as food safety, public health and 
epidemiology, and also the third area for underserved areas in 
Federal Government where veterinarians are used. And the 
approach that we took, and the second option that I pointed 
out, clearly identified two of those three areas in which we 
have made some effort and certainly have gotten a program 
underway to do that. Now, it doesn't address the third area but 
certainly two of the three areas that you identified in the 
legislation that was approved have been underway and we have 
made some progress in that.
    Mr. Kagen. Well, we may have a difference of opinion about 
the extent of the progress, but thank you again for the brief 
time I have had to spend with you. Thank you very much.
    The Chairman. Thank you.
    Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you very much.
    Mr. Secretary, thank you for joining us. Thank you for the 
personal attention and interest that you have taken in this 
issue. You and I have met and visited and you met with other 
Members of Congress. I guess my hope as a result of this 
hearing is that we get USDA's attention that you may have made 
progress in two of the three areas but we want you to make 
progress in the third. I think it is a bit disingenuous, that 
may be too strong of a term, but the Administration supported 
passage of this legislation. So, for us to get in a battle 
about whether this is a priority of Congress or a priority of 
the Administration seems to me to be a useless endeavor. I have 
seen the letter of Secretary Veneman urging the adoption of 
this legislation and encouraging Congress to pass it, and we 
did. I am troubled by the fact that USDA really took no action 
on this issue for 2 years. And then, as far as I know without 
any particular consultation with Congress pursued--to at least 
to some of us--what we would consider diverting from the crux 
of what we were trying to accomplish. The reality is, 
regardless of that history, and you weren't there then, but 
regardless of that history, we are at a point in which we are 
not accomplishing the goals that I think both of us share. 
There is no question that there is a tremendous shortage of 
veterinarians in rural America in large animal practice. That 
has consequences for the agricultural economy, for my farmers 
and my ranchers, and it has a significant consequence to the 
food safety and homeland security of our country. So in a 
sense, although I am disappointed about the way we got here, 
that is not my major point of the day. The opportunity that I 
hope to have is now what are we going to do. I would again say 
that the idea of a scholarship program in my opinion does not 
advance the cause that we are seeking. I continue to be 
interested in USDA implementing a loan repayment program for 
those who graduate from schools of veterinary medicine and 
serve in underserved areas. So what I hope would come from this 
hearing is not to repeat the history but to say, ``Okay, here 
is where we are, Congress wants this done, we agree it is a 
noble endeavor. It is something that needs to happen both for 
the security of our country and for the economy of our farmers 
and rangers, here is USDA's proposal.'' So rather than all the 
reasons why we can't do what we have asked you to do, my 
question would be, is there no opportunity for USDA to 
implement a loan repayment program for veterinarians serving in 
underserved area? It is always frustrating I assume to you as a 
head of a department, an agency. It is frustrating to me as a 
Member of Congress to always hear why we can't do what needs to 
be done when we recognize it needs to be done. Any ability to 
give us advice of how we do a loan forgiveness program?
    Dr. Buchanan. Well, let me first respond that I thought 
that the three areas that were mentioned were all important, 
and of course, the CSREES addressed two of those and they 
really addressed the other one because for the emergency side, 
that was included too as part of it. But all I can say, 
Congressman, is that certainly we look forward to working with 
you in any way we could to try to find a solution, and I am 
like you. Rather than what happened in history, I would prefer 
to look at what can we do with the future and we certainly 
would look forward to working with you to try to find a 
solution.
    Mr. Moran. Well, I appreciate that, and you may look at 
states. Kansas has implemented in 90 days a veterinary loan 
repayment program in which we are repaying the debt of ten 
veterinarians who serve in an underserved area. We are dealing 
with ten people with very few resources. My guess is that if I 
calculate the math, a Department of Agriculture program may be 
about 100 veterinarians at that million dollars and my guess 
is, my hope is that it doesn't take a significant amount of 
personnel and tremendous amount of oversight to deal with a 
loan forgiveness program dealing with about 100 veterinarians 
across the country.
    I see that my time is expired. I thank the Chairman and 
Ranking Member again for allowing me the opportunity to 
participate in this panel.
    The Chairman. We appreciate your comments very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I apologize for 
stepping away briefly. I was wondering if you could reflect on 
the issue that a lot of industries are seeing retirements and 
how much are we seeing the changes in veterinary school 
enrollment. Do we need more vet schools? I know there aren't 
too many across the country. Could you speak to that issue?
    Dr. Buchanan. I really can't answer that. Dr. Otto, do you 
have any numbers on that?
    Dr. Otto. We do not have specific numbers with us. We could 
certainly provide that information for the record. We will say 
that we are aware of the aging problem of veterinarians. We are 
aware of the shortage issue associated with large and food-
animal veterinarians and can absolutely provide detailed 
information for the record if that is desirable.
    Mr. Smith. I appreciate that, and I know that as we have 
this issue before us, I mean in the realm of food safety, we 
are finding out more and more. As Mr. Kingston noted, with the 
terrorism issue as well, that the issue is pretty complex and 
so I would appreciate your endeavor to reach a resolution. 
Thank you.
    The Chairman. Well, thank you, Mr. Smith.
    Mr. Hayes, anything?
    Mr. Hayes. A couple quick questions. Thank you, Dr. 
Buchanan, for you and your folks being here today. My question 
is, what are you going to do and when are you going to do it?
    The Chairman. You just asked my question. Thank you, Robin.
    Dr. Buchanan. Well, we are continuing the program that we 
started with FSIS that certainly addressees two of those areas. 
We are still going to look forward to working with you to 
whatever approach we might take in the future.
    Mr. Hayes. I think it is pretty clear that we are not at 
all satisfied with what you all are doing, and I am asking you 
again what are you going to do different? Are you going to call 
the university at North Carolina State and ask them for a 
suggestion or in Iowa or in Kansas or in Nebraska and get this 
thing moving? Working with us is fine but working with us is 
not the issue. Getting the money spent to get rural 
veterinarians is what we want you to do. We want some more 
excitement, we want some more enthusiasm and especially we want 
some action. Anything foggy about that?
    Dr. Otto. No, sir. That is very direct and clear. 
Congressman, we have talked with a number of universities. We 
have had fairly extensive conversations with constituent 
groups. We have a number of ideas. Speaking parochially from 
the point of view of CSREES, and this is where the 
appropriation was lodged by the Congress with my agency, we 
have extensive authorities to work with universities. The 
legislation that we are addressing prohibits us from doing 
that. It says specifically, ``the Secretary must enter into an 
agreement with a veterinarian.'' That cuts us off at the legs 
twice. One, we don't work with practitioners. Our mission is to 
advance education, research, and extension. We work with 
students. We could probably do that. We work with universities. 
We could absolutely do that, make funds available competitively 
for the same programs that are being cited here by Members of 
your Subcommittee. But the legislation as written prohibits us 
from doing that. We just can't. And that is the major problem.
    Mr. Hayes. Well, that is very good information. Chandler 
and other staff, we can change that. We all know what we want 
to do. It shouldn't be that hard to do it. If that is a 
problem, Mr. Chairman, I am sure we can provide that and it 
shouldn't take 4 years to get over that hump. I yield back.
    The Chairman. Are you suggesting we go to a different 
agency on this issue?
    Mr. Hayes. Well, I just heard him say that because the way 
the law is written, they can't deal directly with the 
university, they have to deal with the student. They don't know 
how to do that, so if the university is the way you think we 
ought to go and that will get the job done, and we can provide 
in law a correction that removes that hurdle, I am more than 
willing to do it.
    The Chairman. Are you suggesting we ought to go to some 
other agency than you?
    Dr. Buchanan. I am not suggesting either that or that the 
law be changed. I am pointing out these would be options.
    The Chairman. What would you desire from us to allow you to 
do what we had in mind to get this problem met; not taking away 
as there are other needs as well. But, for this particular 
need, what would you need from us. Dr. Buchanan or somebody, 
what do you need? Or would you rather not deal with it? I am a 
little confused here.
    Dr. Buchanan. Well, as I pointed out, we would work with 
you----
    The Chairman. Well, you have said that but nothing has 
happened. So here we are at this stage, and I think Mr. Moran 
made it pretty clear what we are asking. We would like to move 
on this and get something going. It seems to me like it would 
be easy enough to recommend that you go out to the teaching 
universities with some kind of a grant and let us get going and 
get more veterinarians. But if you don't want to do that or if 
that is not a good idea, please tell us so.
    Dr. Buchanan. Well, as we tried to point out that clearly, 
and I am not saying that because putting a scholarship program 
into place would require a lot of things and that is just an 
idea. But clearly I think that looking at the long haul, this 
would be a way of addressing the problem. You can go to any 
university and you have so many different scholarships that are 
designed for certain purposes. Someone will want to advance 
animal science and they will endow a scholarship for someone to 
major in animal science. Now, that is a rather general 
approach, but used in many different areas, so the concept is 
one that is well tested in academia. I think that the point 
that has been made earlier that this would be a way of 
recruiting students into large-animal veterinary medicine. I 
know as was already pointed out, a majority of the students 
that start in veterinary medical science are looking to go into 
companion-animal practice simply because that is the most 
lucrative. But if you started out with students that, say, 
wanted to study veterinary medicine--but let us say their 
economic means won't let them. If you were to promise them that 
they could go and get their tuition paid and their room and 
board and that, if they would sign a contract to practice 
veterinary medicine in a certain area. I think that that in the 
long haul would be a most logical way of doing it.
    The Chairman. Well, I think Mr. Moran was suggesting that 
there are some models out there.
    Mr. Moran. Mr. Chairman, if you would yield?
    The Chairman. Sure.
    Mr. Moran. I think one of the questions that we need to 
resolve, because it seems to me that USDA wants to head down a 
path of scholarships and the question becomes, does that 
satisfy those of us who care about that program. From my 
perspective, I am still in favor of loan forgiveness if the 
veterinarian chooses to practice in an underserved area. But I 
think when Dr. Otto talks about the ability to enter into a 
contract is limited due to, as the Secretary says, when the 
legislation says that the Secretary has to enter into a 
contract with a veterinarian, that is a problem. If we pursue 
the scholarship program that may be where we are talking about 
amending the language. So again, I would only point out that 
the crux of this issue is, do we want USDA to come to us with 
suggestions about how to pursue a scholarship or do we want to 
insist that they implement a program of loan forgiveness. I 
would guess that the answer of what USDA needs from us is 
probably different, depending upon whether it is a scholarship 
program or a loan forgiveness program. I would defer to staff. 
I may not be precisely right but my guess is, you have to 
answer that question before we know what legislatively would be 
helpful to USDA. Thank you, Mr. Chairman.
    The Chairman. That was a good discussion.
    Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    Dr. Buchanan, we met with some of your folks in November 
and talked about this issue and the idea of the scholarship, 
and we are hung up on ``wordsmithing'' here. We are talking 
about getting veterinarians into rural areas to treat large 
animals, and we can call it loan forgiveness, whatever the 
result may be. But if some of your folks could refer back to 
our meeting in November where you advanced the idea of doing 
the scholarship thing, is that the position of the Department 
now? Is that how you want us to pursue it?
    Dr. Buchanan. Well, let me say, sir, this was only an idea 
and of course probably if we worked on this idea, we would 
allocate the money on a competitive basis to universities such 
as North Carolina State and Kansas and institutions. Then we 
would have the stipulation as to how they would do that. I 
believe what Congressman Moran was saying was that they have a 
similar type of program already in place at Kansas State. I 
think that these institutions that have this kind of program 
already have in place the mechanism to deliver the students. 
Our job would be to allocate the money to colleges of 
veterinary medicine on a competitive basis, which is certainly 
within the purview of what we do all the time with many of the 
allocations of money that go from CSREES. So I think this would 
be a very workable approach. While I am not saying that is 
something we can do, it is certainly something we can pursue. 
But I just think that in looking at how scholarships work 
throughout academia, this would be a way of addressing the 
problem. Now, that won't address the problem in the short run. 
It will take 4 years or 5 years to really start getting 
students out of the pipeline. But those schools that have been 
forward looking, like Kansas State that already have a program 
in place would simply be able to utilize the mechanism that 
they already have in place and it would simply augment that.
    The Chairman. So are you telling us that you would 
recommend that we do something like that and get this moving as 
quick as we can? Because the shortage is severe.
    Mr. Hayes. If I may, if the Chairman would yield, the 
Department sent up language after that meeting suggesting this. 
Does that language reflect what Dr. Buchanan is saying now? I 
mean, you can't get finished until you get started. It sounds 
like outputs and we are interested in outcomes, so does that 
language that you sent up, would that get the job done?
    Dr. Otto. Congressman, that was sent up as a concept 
development at the request of Members of Congress. In our 
judgment, it is probably workable. It is not something that the 
Administration is requesting.
    Dr. Buchanan. And I need to emphasize that that is not a 
proposal that we are making. I think you understand that.
    Dr. Otto. Mr. Chairman, if I may, on a number of occasions, 
questions have come up and suggestions relevant to other models 
in government. The HHS program for the National Health Service 
Corps comes to mind where they provide loan repayment and debt 
forgiveness for a wide range of health and health safety 
occupations, everything from midwives to physicians to 
osteopaths to clinical social workers. This is a program that 
is up and running. We approached HHS very early on. We asked, 
could we partner with them and have them cover a loan repayment 
program for veterinarians. Their response was to ask us 
immediately how much funding was available. We told them. They 
said that would not begin to cover the costs simply of merging 
a USDA program into theirs. I have looked at their program in 
detail. Just the application package runs 78 pages of 
instructions. It is very complex and yet it is a good program. 
They have it in place already, and if a witness can be 
permitted to ask a question, why would this not be a logical 
place for this program, given that we have the Veterinary 
Workforce Expansion Act already targeted at HHS? Wouldn't this 
be an ideal companion piece? It just would seem to me to be 
very cost-effective.
    Mr. Hayes. You just answered your question. It is a 78 page 
form and it is a bureaucratic governmental nightmare. Why can't 
we do something simple? And if Yogi was here, he would say, 
``It is deja vu all over again,'' 77 pages for animal ID on a 
voluntary basis. You sent us language and I think I hear you 
saying we are not supporting that. You have told us today that 
there is a legislative hurdle to do what we want to do. Can't 
you all get your heads together, Congressman Moran and whoever, 
and I think, Mr. Chairman, hopefully the gentleman that is 
going to testify next, we will quit this circular questioning, 
may be able to answer it. But if we can help you all find an 
answer, are you all ready to move and get it done?
    Dr. Buchanan. Let me say that the idea of the scholarship 
is simply an option that we are simply suggesting as an option. 
Clearly the reason of those complex rules and regulations is, 
when you start handing out money to individuals, I can see so 
many challenges and I can understand why we have such long 
rules and regulations. For example, just one of the issues that 
you have to have is, there certainly will always be more 
recipients that are deserving and meet the basic qualifications 
than will be money available, so how do you select from those 
worthy recipients to get the money? So there has got to be very 
definitive rules and regulations that we need to address. But 
to also follow up, we certainly are ready to move ahead at the 
direction of the Congress. We will do everything we can because 
we basically agree, there is a challenge out there. But I also 
have to add in the same breath we have a lot of challenges and 
we are trying to prioritize the whole effort of research and 
education in agriculture.
    Mr. Hayes. Again, thank you, Dr. Buchanan. We appreciate 
your presence. There has got to be a solution. It can't be that 
hard to find. Let us go after it.
    The Chairman. Before we close, does anybody else want to 
join? We have to vote but we have another minute or 2. Okay. 
Can I ask you that you will continue this dialogue with our 
staff and with us and let us see if we can't find some simple 
way to get to the point? I think Mr. Moran and Mr. Hayes made 
their points very well and I have tried to see if we can't find 
a solution. We are not satisfied. You know that. And we have 
talked clear around the circle of all this stuff. Now, let us 
just stop that and go back to your suggestion, Dr. Buchanan. 
What can we do? Tell us plain and simply what to do to get 
veterinarians in the field of large animals. That is what we 
need to do. We are way behind.
    Dr. Buchanan. Congressman, I certainly would agree that we 
will look forward to working with you and try to find a 
solution. My philosophy has always been to don't worry about 
the past but try to----
    The Chairman. Well, I appreciate that. So I am requesting 
of you, I am asking of you if you will go back, put your heads 
together and send us something that you think from your best 
expertise that would get to this problem. Would you do that?
    Dr. Buchanan. Yes, sir.
    The Chairman. Thank you very much. We are glad to have had 
you with us today. We are going to take a short break now 
because there is a vote on and then we will come back as soon 
as we get past this voting and take up the next panel. Thank 
you very much.
    [Recess.]
    The Chairman. I think we will go ahead and start. 
Congressman Hayes will be joining us very shortly. He said we 
can go ahead and start with your testimony and the record and 
so on, Dr. Hammer, but we appreciate you being here. For those 
of you in the audience, this is Dr. Gregory Hammer, a Doctor of 
Veterinary Medicine. He is the President of the American 
Veterinary Medical Association from Delaware. We appreciate you 
being here. I suspect you are a very, very busy gentleman. Drs. 
Thompson and Reynolds from out my way speak highly of you and 
we appreciate that. They were very pleased that you were going 
to be able to be here today, and I just wanted you to know that 
from your colleagues in Iowa. So with that, we welcome you, Dr. 
Hammer. Thank you for coming and we are anxious to hear what 
you have to say.

  STATEMENT OF GREGORY S. HAMMER, D.V.M., PRESIDENT, AMERICAN 
   VETERINARY MEDICAL ASSOCIATION; STAFF VETERINARIAN, OWNER/
                     PARTNER, AND CORPORATE
          OFFICER, BRENFORD ANIMAL HOSPITAL, DOVER, DE

    Dr. Hammer. Thank you, Chairman Boswell. I appreciate the 
opportunity to be here, and for Mr. Moran, I also grew up in 
Kansas, in Bonner Springs, Kansas, where my family still lives. 
So I am very familiar with the 103 counties in the State of 
Kansas.
    So again, thank you, Mr. Chairman and Members of the 
Subcommittee for giving the American Veterinary Medical 
Association the opportunity to speak in support of 
implementation of the National Veterinary Medical Service Act. 
I am Greg Hammer, President of the AVMA, and I am a small-
animal and equine practitioner in Dover, Delaware.
    The AVMA represents more than 76,000 veterinarians engaged 
in every aspect of veterinary medical science. Many of us are 
food supply veterinarians working to ensure the health and 
safety of our nation's livestock. These food supply 
veterinarians are the guardians of our nation's food supply and 
they will be the first medical professionals to diagnose and 
contain diseases in animals that may spread to humans. These 
zoonotic diseases are increasing as we have seen most recently 
with the spread of highly pathogenic avian influenza, or bird 
flu, from Asia, to the Middle East and now onto Europe.
    Today we are facing a shortage of food supply 
veterinarians. Their absence in many underserved and rural 
areas of our nation negatively impacts animal health and 
welfare and constitutes a significant threat to our nation's 
public health. The National Veterinary Medical Service Act, or 
what is sometimes referred to as NVMSA, was signed into law by 
President Bush in December of 2003 and is a loan repayment 
program for veterinarians who pledge to practice in a variety 
of underserved areas including food supply veterinary medicine. 
The Act also creates a reserve corps, a veterinary national 
guard, if you will, that will answer the government's call for 
assistance in the event of an animal disease emergency or 
disaster.
    NVMSA has been law for more than 4 years and it received 
initial funding more than 2 years ago yet the Act has 
languished. Why, we ask? Because its rules remain unwritten, 
rendering the program nothing more than a paper tiger, 
powerless and ineffectual. This is unacceptable. The AVMA is 
committed to solving the workforce shortage in food supply 
veterinary medicine. The formation of the Food Supply 
Veterinary Medicine Coalition in 2004 shows how strongly the 
AVMA and many other organizations feel about solving the 
problem. The Coalition sponsored a study published in 2006 that 
indicates that while projected demand for food supply 
veterinarians will increase 12 to 13 percent between now and 
the year 2016, supply is projected to fall by four to five 
percent per year. The AVMA also convened a National Veterinary 
Medical Service Act Advisory Group in 2004 to address 
fundamental issues such as how a shortage would be defined, the 
objectives of the program and who would be eligible for the 
loan repayments, all in an effort to assist the United States 
Department of Agriculture in implementing this program.
    Educational debt is one of the biggest obstacles standing 
in the way of students pursuing a career in food supply 
veterinary medicine. That debt has increased by a whopping 35 
percent since the National Veterinary Medical Service Act was 
signed in 2003, 35 percent. The Act once implemented and 
operational will help defray some of this debt, making food 
supply veterinarian jobs in some of our most underserved 
geographic areas more attractive to the prospective job 
candidate.
    Much remains to be done, however. We are still waiting for 
USDA to fulfill its responsibility and answer our calls for 
written rules and implementation of NVMSA. Over the past 3 
years Congress appropriated funds for the Act. However, much of 
that funding has been redirected to Food Safety and Inspection 
Service veterinarians through a preexisting loan repayment 
program previously funded by FSIS. While the AVMA is grateful 
for the government assistance this program receives, the monies 
going to FSIS were supposed to go to NVMSA, which still awaits 
implementation.
    Last year the USDA granted the Cooperative State Research, 
Education, and Extension Service authority to implement NVMSA. 
We have learned, however, that that service says it does not 
have the capability to administer and develop the program. As a 
response to the USDA's inaction on NVMSA, the United States 
Senate has called for amendments to the Act in the 2007 Farm 
Bill. We support these amendments.
    The amendment calls for halting the transfer of money away 
from NVMSA and they underscore the importance of limiting the 
application of funds for their original intent, which is 
support of rural large and mixed animal veterinary practices. 
The amendments also provide a deadline by which USDA must 
promulgate the rules of the Act.
    Mr. Chairman, Members of Congress and President Bush 
realize that they can play a role in relieving this shortage of 
food supply veterinarians by passing and signing into law 
NVMSA. You fulfilled your responsibility. Now we ask that USDA 
fulfill theirs. We ask that the USDA go on record about what 
resources they need in order to implement the Act. If they need 
money for the program, tell us how much. If they need staff to 
develop and implement the program, tell us how many. If they 
need help in writing the rules, ask us for assistance. The AVMA 
stands ready to assist in the development and implementation 
process in any way possible.
    In closing, the problems that the National Veterinary 
Medicine Service Act will address worsen each and every day the 
program remains nonfunctional. This has all the markings of a 
crisis if we don't act now.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions that you or the Committee might have.
    [The prepared statement of Dr. Hammer follows:]

      Prepared Statement of Gregory S. Hammer, D.V.M., President,
  American Veterinary Medical Association; Staff Veterinarian, Owner/
  Partner, and Corporate Officer, Brenford Animal Hospital, Dover, DE
        ``I know of no pursuit in which more real and important 
        services can be rendered to any country than by improving its 
        agriculture, its breed of useful animals, and other branches of 
        a husbandman's cares.''

        George Washington,
        1732-1799,
        U.S. General,
        President,
        Letter, July 20, 1794.

    Thank you, Mr. Chairman and Members of the Subcommittee, for giving 
the American Veterinary Medical Association the opportunity to speak in 
support of implementation of the National Veterinary Medical Service 
Act.
    I am Dr. Gregory Hammer, President of the AVMA and a small animal 
and equine practitioner in Dover, Delaware. Prior to entering private 
practice, I held the rank of Captain in the U.S. Air Force as a 
Veterinary Medical Officer from January 1974 to January 1976.
    The American Veterinary Medical Association represents more than 
76,000 veterinarians engaged in every aspect of veterinary medical 
science. Among other things, we ensure the well-being of our nation's 
pets, we protect human health through the control of zoonotic disease, 
we conduct research into animal and human health, and we help preserve 
endangered species. Many of us are food supply veterinarians, working 
to ensure the health and safety of our nation's livestock.
    Food supply veterinarians are the guardians of our nation's food 
supply--from poultry and swine to dairy cows and beef cattle--and they 
will be the first medical professionals to diagnose and contain 
diseases in animals that may spread to humans. These zoonotic diseases 
are increasing, as we have seen most recently with the spread of highly 
pathogenic avian influenza--or Bird Flu--from Asia to the Middle East 
and Europe. The exponential spread of infectious disease makes rapid 
diagnosis necessary if the disease is to be controlled.
    Today, we are facing a shortage of food supply veterinarians. Their 
absence in many underserved and rural areas of our nation negatively 
impacts animal health and welfare, as well as public health. Not only 
is the food supply vital for obvious reasons, the economic activity 
generated by the food supply industry is also critical to our country's 
economy.
    The American Veterinary Medical Association is committed to solving 
these shortages. The formation of the Food Supply Veterinary Medicine 
Coalition in May of 2004 shows how strongly the AVMA, and many other 
organizations, feel about solving this problem. The members of the Food 
Supply Veterinary Medicine Coalition are: the Academy of Veterinary 
Consultants, the American Association of Avian Pathologists, the 
American Association of Bovine Practitioners, the American Association 
of Food Hygiene Veterinarians, the American Association of Small 
Ruminant Practitioners, the American Association of Swine 
Veterinarians, the American Veterinary Medical Association, the 
Association of American Veterinary Medical Colleges and the United 
States Department of Agriculture's Food Safety and Inspection Service.
    The Food Supply Veterinary Medicine Coalition has embarked on an 
aggressive mission to help curtail the shortage of food supply 
veterinarians. The Coalition funded a Kansas State University study to 
determine the extent of the shortage and how it impacts the American 
food supply. The study, published during the summer of 2006, indicates 
that, while projected demand for food supply veterinarians will 
increase 12 percent to 13 percent between now and 2016, a shortfall of 
four percent to five percent per year is projected.
    One of the most recent developments toward helping solve the food 
supply veterinarian shortage is the creation of a section on the 
American Veterinary Medical Association website that highlights this 
situation. This website is part of our effort to help spread the news 
that food supply veterinary medicine is at a critical juncture and 
deserves national attention. The entities helping in this collaborative 
effort are sharing information, building coalitions, lobbying for 
legislation and trying to recruit more students into the food supply 
field.
    Perhaps one of the most revealing programs undertaken by the 
Coalition is a series of maps created by the AVMA that provide a unique 
look into the state of food animal veterinary medicine and how a lack 
of practitioners is hitting some areas of the country much harder than 
others. By painstakingly comparing data from the AVMA and the United 
States Department of Agriculture, we were able to pinpoint the hot 
spots in each state were few--if any--food animal veterinarians reside 
or have a practice located. The maps also identify counties where 
veterinarians may be located but their numbers are insufficient to 
support the concentration of food animals located in that area.
    What we found is that the ratio of food animals to food supply 
veterinarians in some states--like Wyoming--is fairly well balanced. 
It's a different story in other states, however. Take South Dakota, for 
instance, where more than a dozen counties have more than 25,000 food 
animals but no food animal veterinarians.
    The National Veterinary Medical Service Act, which President Bush 
signed into law in December 2003, is a loan repayment program for 
veterinarians who pledge to practice in a variety of underserved areas, 
including food supply veterinary medicine. Under the law's current 
language, these veterinarians would receive debt forgiveness if they 
provide their services to geographic areas of need, areas of veterinary 
practice that are in need, areas of veterinary need in the Federal 
Government and other areas deemed appropriate by the Secretary of 
Agriculture.
    The Act also creates a reserve corps--a ``Veterinary National 
Guard'' if you will--that will answer the government's call for 
assistance in the event of an animal disease emergency or disaster.
    While the National Veterinary Medical Service Act has been law for 
more than 4 years, its rules remain unwritten, rendering the program 
nothing more than a paper tiger, powerless and ineffectual. What is 
most frustrating is that, while the law has been in place since 2003, 
the writing of the rules and the implementation of the Act have 
languished since its passage and even since it received its first 
funding more than 2 years ago.
    This is unacceptable.
    A few states, including Kansas, Ohio, Louisiana, Maine, 
Pennsylvania, Missouri and North Dakota, are picking up the ball that 
has been dropped by the Federal Government and are approving--and 
implementing--student loan repayment programs for veterinary school 
graduates who agree to serve in areas where food supply veterinarians 
are needed.
    The AVMA also convened a National Veterinary Medical Service Act 
Advisory Group in January 2004 to address fundamental issues such as 
how a shortage would be defined, the objectives that such a program 
would meet and who would be eligible for the loan repayments--all in an 
effort to assist the USDA in implementing the program.
    Our nation's 28 accredited veterinary colleges currently graduate 
about 2,500 veterinarians each year. According to a recent report by 
the Bureau of Labor Statistics, veterinary medicine ranked 9th in the 
list of the 30 fastest-growing occupations for 2006 through 2016. It is 
estimated that jobs for veterinarians will increase by 35 percent in 
the next several years.
    While some of that growth will be matched with the addition of new 
graduates into the workforce, there is no doubt that food supply and 
public health veterinarian jobs will be difficult to fill. There are 
about 8,850 U.S. veterinarians working in the food supply field. Around 
the turn of the 20th Century, virtually every veterinarian was a food 
animal veterinarian. Today, only about 17 percent of veterinarians work 
in food supply, while more than 70 percent of veterinarians work with 
companion animals. This trend is likely to continue as veterinary 
school graduates enter the workforce.
    Of the 2007 veterinary school graduates who chose to begin work in 
the profession directly upon receiving their degrees, only about 14 
percent chose food supply veterinary medicine, while more than 41 
percent chose small animal practice and about four percent chose equine 
practice. Reducing this employment pool even further is the fact that 
about 37 percent of graduates decided to pursue advanced study 
programs.
    One of the biggest obstacles standing in the way of students 
pursuing a career in food supply veterinary medicine is educational 
debt. It is estimated that the average student debt for a veterinary 
school graduate now exceeds $106,000. That debt has increased by almost 
35 percent since the National Veterinary Medical Service Act was signed 
into law in 2003.
    As these figures illustrate, it is no easy task earning a degree in 
veterinary medicine. Even more obvious is that it is very costly to 
become a veterinarian. Upon graduation, most of these newly educated 
veterinarians must find a job that not only meets their daily living 
expenses, but also helps them pay down their student debt. This can be 
a daunting task, especially when we consider salary levels for new 
graduates entering the workforce. The mean starting salary for new 
graduates was about $57,969 in 2007. Those veterinarians entering large 
and mixed animal practice were compensated below that average.
     The highest paying jobs in each of the practice categories are 
typically determined by geography, which more often than not dictates 
the level of salary. Jobs in many rural areas, where food supply 
veterinarians are in the highest demand, often pay less due to 
demographics and other economic conditions. The National Veterinary 
Medical Service Act, once implemented and operational, will help defray 
some of this debt, making these rural areas--and these food supply 
veterinarian jobs--more attractive to prospective job candidates.
    With the mean age of food supply veterinarians hovering around 50, 
many practitioners will be considering retirement in the not-too-
distant future, placing an even greater burden on the profession and 
our society.
    Mr. Chairman, as stated in the invitation to attend this hearing, 
our purpose here is to ``review the National Veterinary Medical Service 
Act.'' I hope I have laid the groundwork for why we believe fully 
funding and implementing this legislation is so important.
    Much remains to be done, however, and the AVMA has questions about 
why it has taken so long for the United States Department of 
Agriculture to answer Congress' call to action.
    A letter from then-Secretary of Agriculture Ann Veneman to 
Representative Bob Goodlatte dated July 29, 2004, states, ``As the 
front line of defense in the war against animal diseases, USDA is 
keenly aware of the serious need for veterinarians in certain 
geographical and practice areas. In addition to the areas mentioned in 
the bill, USDA has been working with the American Veterinary Medical 
Association to identify other areas of veterinarian shortage.'' While 
this is indeed the case--that the USDA has worked with the AVMA to 
identify areas of veterinarian shortage--most of that data came from 
work done by the AVMA and its staff. Now we are waiting for the USDA to 
fulfill their responsibility and answer our calls for written rules and 
implementation of the National Veterinary Medical Service Act.
    Written responses dated June 22, 2006, from Dr. Gary Sherman, 
National Program Leader of Plant and Animal Systems, to questions posed 
to the USDA about the status of the Act leave us more frustrated than 
satisfied about its future.
    Dr. Sherman stated in one response that ``substantial progress'' 
has been made ``to develop a veterinary educational loan repayment 
program consistent with the spirit and the letter of the NVMSA.'' We, 
however, at the AVMA have not received any details as to what 
``substantial progress'' means.
    Another response states that the ``NVMSA Working Group within USDA 
CSREES has developed a series of white papers describing potential 
programmatic strategies for implementing NVMSA.'' We at the AVMA have 
not received a copy of these white papers, nor has the working group 
shared their content with us.
    It was also stated that the NVMSA Working Group ``has developed a 
two-phase draft strategy, the first of which is anticipated to lead to 
distribution of awards as early as fall of 2006.'' These distributions 
are going to Food Safety and Inspection Service veterinarians through a 
reprogramming of funds to a pre-existing loan repayment program 
previously funded by FSIS. While the AVMA is grateful for the 
governmental assistance this program receives, the monies going to FSIS 
were supposed to go to the National Veterinary Medical Service Act, 
which still awaits implementation.
    In another response, it was indicated that the USDA is working on a 
``longer-term strategy that provides a mechanism to obtain validated 
veterinary workforce needs estimates for the various sectors identified 
in the Act.'' We respectfully ask where that work stands, especially in 
light of the fact that the AVMA supplied much of the data from the Food 
Supply Veterinary Medicine Coalition study and the food supply 
distribution maps mentioned earlier in my testimony--and in light of 
the fact that the data has generated significant support from many 
others in the scientific and government communities.
    Apart from these unanswered questions, we also have other concerns.
    The USDA last year granted the Cooperative State Research, 
Education, and Extension Service authority to implement the National 
Veterinary Medical Service Act. We have learned, however, that CSREES 
says it does not have the capability to administer and develop the 
program. We question this because it is our understanding that CSREES 
has rule writers on staff. If that is the case, we must assume they 
have a management analyst on staff who can lead the rules-writing 
process. If CSREES does not have a management analyst, they are free to 
ask other agencies for help in the rules writing.
    As a response to the USDA's inaction on NVMSA, the United States 
Senate has called for amendments to the Act in the 2007 Farm Bill. We 
support these amendments. The amendments call for halting the transfer 
of money away from NVMSA to FSIS. They underscore the importance of 
limiting the application of funds for their original intent--support of 
rural large and mixed veterinary practices. And the amendments provide 
a deadline by which USDA must promulgate the rules of the Act.
    Mr. Chairman, and Members of the Subcommittee, veterinary students 
are, by their very nature, dedicated to the care of animals. They are 
also keenly aware of the many critical roles veterinarians play in our 
society. But while many of these veterinary students are aware of the 
career opportunities in food supply veterinary medicine, there are many 
societal factors involved in their decision as to where to practice 
medicine. Perhaps the biggest factor in their decision is the salary 
they can earn to provide for themselves and their family. Members of 
Congress and President Bush realized that they could play a role in 
making that decision a bit easier by passing and signing into law the 
National Veterinary Medical Service Act.
    You fulfilled your responsibility. Now we ask that the USDA fulfill 
theirs.
    We ask that the USDA go on record about what resources they need in 
order to implement the National Veterinary Medical Service Act. If they 
need money for the program, tell us how much. If they need staff 
members to develop and implement the program, tell us how many. If they 
need help in writing the rules, ask for assistance.
    The AVMA stands ready to assist in the development and 
implementation process in any way possible. I believe we have already 
shown our commitment to doing so by detailing our involvement in the 
process through both the written and oral testimony I have provided to 
you today.
    In closing, the problems that the National Veterinary Medical 
Service Act will address worsen each and every day the program remains 
nonfunctional. This has all the makings of a crisis if we don't act now 
and implement the National Veterinary Medical Service Act.

    The Chairman. Thank you, Dr. Hammer. I think you have hit 
the nail on the head. Were you here for our earlier panel 
discussion?
    Dr. Hammer. Yes, sir.
    The Chairman. Okay. Then I won't refer to that, and I think 
you understand what we discussed there at that time. Maybe for 
the record, your definition of ``underserved area'' would be 
helpful. I think I know what it is but I would like you to 
describe an ``underserved area.'' I think you pretty well told 
us what the impact is of it.
    Dr. Hammer. I think an ``underserved area'' is anywhere 
where you have enough people asking, ``Where is my veterinarian 
and how far do I have to go, and why aren't they there when I 
need them in an emergency.'' The AVMA has done several studies. 
Our most recent one that you have the maps of before you of 
your individual states shows 25,000 food animals and no 
veterinarians at all in that county. It is a county-by-county 
map of the United States and I think it is very, very 
frustrating to look at the middle of the country and see how 
many red flags are up there. So an underserved area is every 
one of those red flags, and it is very frustrating when we 
can't put veterinarians there. When every week I get a student 
that asks me when are we going to get this program in effect, 
and I have new graduate veterinarians that have debts that want 
to go into mixed-animal medicine but the obstacle of the debt, 
they can't do it. They have to go where they can pay their 
debt, and it is very frustrating.
    The Chairman. I appreciate that. You probably heard Mr. 
Hayes and I talking about it too. It seems to me like we have 
professional schools of veterinary medicine in my state, your 
state and the rest of us actually, those that have them out 
there that are ready to promulgate and get a program going that 
would help. Do you have any comment on that?
    Dr. Hammer. Yes, sir, I do. There are a number of schools 
that Mr. Moran spoke about in the State of Kansas. That is the 
legislative help that has come from the state legislatures. 
There are a number of veterinary schools that have brought 
forth different programs to encourage more of their students to 
go into food supply and specifically rural veterinary medicine. 
We have a public now that is raised further and further from 
the farm, that knows less and less about farm animals. They are 
not as comfortable when they come from an urban area and so 
they are a little uncomfortable in going to those food supply-
type jobs. And we are just hoping that the opportunities that 
we are giving them in the schools and the opportunities that 
Congress has given by enacting the NVMSA and funding it will 
help.
    The Chairman. Well, it seems that large-animal veterinary 
medicine is a little more challenging in some respects. That is 
where you can make the argument on the small animal, but when 
you are dealing with a bull, cow, or a horse, it is a little 
bit challenging, to say the least. I just feel that there such 
a need, or we wouldn't be having this hearing, that we have 
just got to encourage those that are interested and come from 
that sector. As we discussed earlier, they would be more 
inclined to go back if they had some help, and they do take a 
deficit in what they can earn versus going into the urban area 
and doing small-animal health, as we all know.
    Dr. Hammer. Yes, sir. The biggest obstacle is that debt, 
and I agree with you, it is a little more challenging. The only 
time I ever got knocked out was putting an 800 pound bull in a 
squeeze chute and it caught me right there.
    The Chairman. Yes. Been there, done that, so I understand.
    Mr. Hayes.
    Mr. Hayes. Thank you, Dr. Hammer, and we appreciate you 
being here.
    Dr. Hammer. Thank you.
    Mr. Hayes. It just doesn't seem that complicated, does it? 
I was doing some math and----
    Dr. Hammer. No, sir, it doesn't. That is why it is so 
frustrating.
    Mr. Hayes. I was never that good in math, but 29 vet 
schools, that is $62,000 is what is on the table right now. You 
could go that way. It occurred to me, Mr. Chairman, as you were 
speaking, there is an agency called USDA Rural Development. 
They give out grants and loans every week. I hope they know how 
to do it. So that is another option. But again, Dr. Hammer, I 
think it is very clear that the people that know the most about 
it are always the ones to deal with the veterinarians 
themselves through your organization who could provide 
immediate input as to how potential students would like to 
implement the program. Then the universities, 29, maybe there 
are only 20 that are interested but if we put those facts on 
the table and then quickly move to do what we plan to, deciding 
what areas are underserved, USDA has a rule book right now that 
defines which areas are eligible. So that is not a hurdle that 
exists, and them saying how the money had to be administered, 
if the problem is how the law is written, we can change that 
real quick. So again, whether it is a loan that will be repaid, 
as Mr. Moran has discussed it, or a scholarship, it doesn't 
matter. We have all identified a need and money to fund it so 
we have two out of three. All we have to do is decide how. So 
again, your input and pressure from that side of table would be 
helpful. I know we are ready to move. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman and Dr. Hammer. I 
appreciate the fact that Chairman Boswell said that you hit the 
nail on the head, given your last name, but that was pointed 
out by Mr. Moran to me.
    I appreciate your information prior to this session here. 
If we could maybe elaborate on the numbers out there and 
quantify need. It is disturbing to me when I feel that there 
are, and I am not as familiar with the veterinary education, 
but when there are qualified students wishing to enter a field 
and because of the extremely limited seats available they are 
turned away, whether it is dentistry, whether it is other 
points of the medical profession. Do you feel that we have 
enough seats for those interested and qualified students 
wishing to pursue a career in large-animal veterinary medicine?
    Dr. Hammer. No, sir, I do not feel that we are producing 
enough veterinarians every year. The 28 veterinary schools that 
we have in the United States are basically working with a 30 
year old infrastructure. There has been no money put into those 
infrastructures for over 30 years. We are graduating the same 
number of veterinarians as we did almost exactly 30 years ago 
and obviously the demand has gone up. So it is a demand across 
the board, not just food supply. It just happens to be that 
food supply is very much in the forefront. One episode of hoof-
and-mouth disease in this country, I know you remember what it 
did to the United Kingdom. One episode of hoof-and-mouth 
disease in this country would cost $34 billion. Veterinarians 
are the first line defense for that. Without those food supply 
veterinarians being out there to watch for those diseases in 
the rural areas, it can get a foothold much quicker. So that is 
why we are so concerned.
    Mr. Smith. Thank you. And if you know approximately how 
many applications are received compared to those seats granted 
to those applicants?
    Dr. Hammer. That varies. It varies with the school but I 
believe, I don't think there is anybody here from the American 
Association of Veterinary Medical Colleges now, they could tell 
you, but it is about ten to one. I think that probably is a 
general rule of ten applicants to one seat.
    Mr. Smith. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. You are welcome. Thank you.
    Mr. Moran.
    Mr. Moran. Mr. Chairman, thank you.
    Dr. Hammer, thank you for joining us. I am impressed by 
your resume. My only sadness is that despite being a native 
Kansan and a graduate twice of Kansas State University, you 
live in Dover, Delaware. We would love to have you in the State 
of Kansas.
    Dr. Hammer. I got back there with the Air Force and I 
forgot my ruby red slippers and couldn't get home.
    Mr. Moran. I appreciate your service to our country and I 
see that if you had remained a Kansan, we would also perhaps 
have a better shot at a position as a speech language 
pathologist, also professions that we desperately need in our 
part of the country.
    Dr. Hammer. Thank you.
    Mr. Moran. Let me ask just a couple of questions. On the 
process of how we got where we are, has the Department of 
Agriculture dealt with you and your association? Have they come 
to you seeking advice in implementation of this program?
    Dr. Hammer. I think there has been some communication. 
Certainly we have continued to give our input to this over the 
last few years. I can speak personally to one meeting that we 
had when Secretary Johanns was still the Secretary that I 
attended. It was about an hour-long meeting. It was very 
frustrating for just a practitioner, one who doesn't work with 
bureaucracy all the time. I kept saying, ``Well, it is all 
here, why can't we just do it, somebody make the first step,'' 
and so we have continued to give information when we are asked. 
We are a little frustrated at our office here in Washington 
that deals with USDA and in our effort to inform and educate 
that they haven't been looked at more favorably when we did 
bring information.
    Mr. Moran. Mr. Hayes mentioned my interest in a loan 
program. Do you have an opinion or wish to explore with us and 
further this concept of scholarships versus loan forgiveness? 
Do you have a preference and a belief as to which one may work 
best in bringing and retaining large-animal practice vets to 
rural underserved areas?
    Dr. Hammer. Yes, sir. Thank you very much for asking that. 
We feel at this point that a loan repayment program would work 
much better than a scholarship program, and I can give you an 
example. I have a girl that worked for me that is now at 
Oklahoma State University College of Veterinary Medicine and 
she thought she wanted to be a small-animal veterinarian, 
companion-animal veterinarian. She is now in her third year and 
has decided, and I am really glad that she wants to work on all 
bovines, on cattle. Had it been a scholarship program she would 
have applied for it in her first year because she wanted to be 
a companion-animal person then. By her third year, those 
scholarships would not have been available to third year 
students. So we are looking at a debt and a loan repayment 
really of graduate veterinarians. I think perhaps too much 
focus here is on students. We are really looking at the 
graduate veterinarian. Now, they are most likely recent 
graduates so they can pay down that debt but if it takes 
scholarship programs, we will do whatever needs to be done so 
we can get this thing off square one. But, we would prefer a 
loan repayment program.
    Mr. Moran. Well, I share that opinion and your example is 
one reason that I share that opinion. I think many times 
entering the professional school you have a different idea of 
where you want to be than where you may end up. We may lose 
lots of students that rural communities could then recruit 
because they didn't take out the scholarship from day one. As 
they begin to graduate and see the amount of debt that they 
have to pay on their student loans, it's a pretty good 
inducement to connect with the community that has an 
opportunity for service that allows for repayment of that debt.
    Let me follow up on Mr. Smith's question about schools of 
veterinary medicine. I want to take a slightly different 
direction. Your testimony is pretty compelling about the lack 
of investment in schools of veterinary medicine. That is a 
damaging statistic that it has been 30 years since we have 
invested in our schools. Is there no effort underway to expand 
the size of classes in veterinary schools across the country, 
and if the answer to that is no or not much, what is the 
impediment? Is it just such a costly program? I assume that 
state universities don't, ``make money,'' educating a 
veterinary medical student.
    Dr. Hammer. That is a multifaceted question. First of all, 
there are 28 veterinary schools that are supported by 26 
states. When I say we have not invested in an infrastructure, 
that is by the Federal Government. The Federal Government has 
not invested in veterinary medicine for over 30 years and it 
has strictly been the states. So we are asking----
    Mr. Moran. Excuse me for interrupting, but what did the 
Federal Government do 30 years ago that we are not doing now in 
that investment?
    Dr. Hammer. Enlarged the number of veterinary schools and 
also enlarged the capacity.
    Mr. Moran. So there was a role at one point in time that 
the Federal Government played in expanding or creating schools 
of veterinary medicine?
    Dr. Hammer. Yes, sir. As a matter of fact, at Kansas State 
when I graduated in 1973, they were in the middle of that 
building program which was a shared program between Kansas and 
the Federal Government. They also built two or three new 
schools at that time. Now, that is the last investment that has 
been there. So it is very much a crisis because it is not just 
food-animal veterinarians, as I said, that we are short on. All 
of the schools at this point are at their absolute maximum 
capacity inside their walls for educating and graduating 
veterinarians. So it is not a matter that they are not trying 
to fulfill the demand, because, obviously, if they could they 
would produce the supply of veterinarians. That is what our job 
is to do with our 28 veterinary schools. But they just don't 
have the faculty and the inside-the-walls space to do it. We 
are hoping that the workforce expansion grant in the farm bill 
will be a solution to that and we would hope and like very much 
your support. It is way past overdue and something that we need 
also.
    Mr. Moran. Mr. Chairman, do you mind if I ask another 
question?
    The Chairman. You have more time.
    Mr. Moran. Thank you, Mr. Chairman.
    Let me make certain that I understand. Your ``30 years'' is 
about Federal investment. Are there state investments in 
schools of veterinary medicine? Are any programs now expanding? 
The sister or companion university in Kansas, Kansas 
University, I visited in the last month. They are asking the 
state legislature to double the size of their school of 
pharmacy. We can go through the whole list of professionals 
that we have a shortage of, and the demand is there. Students 
want to enroll in the school of pharmacy and the capacity is 
not there. And so Kansas University is trying to meet the needs 
of a state like ours with doubling the size of the school. Is 
that kind of program occurring in this country in regard to 
veterinary medicine?
    Dr. Hammer. No, sir, there are no schools that have the 
funds to increase their capacity any more. I mean, when I say 
100 percent, they are at 100 percent.
    Mr. Moran. So no Federal investment but also no state 
investment in expanding the scope or the size of the class?
    Dr. Hammer. Less and less state support all the time, which 
is why tuition is going up and up and has gone up 35 percent 
since this Act was initiated. It has gone up 35 percent. The 
average tuition is now $35,000 to $55,000 and that is an 
increase over the past 5 years of 35 percent. And because of 
less state support, they have to increase the tuition. The 
veterinary professional, the veterinary doctor is the 
absolutely most expensive medical professional to educate, 
mainly because of complexity of medicine, complexity of 
anatomy, all the different species we work on including humans. 
We also are responsible for human health, public disease and 
zoonotic diseases that are transmitted from animal to man.
    Mr. Moran. Thank you very much. Mr. Chairman, you have been 
very generous with me today and I value that and appreciate it.
    The Chairman. Well, we appreciate you being here, Jerry. 
Thank for you coming and participating in this very important 
matter.
    Mr. Hayes, any questions?
    Mr. Hayes. Would the gentleman from Kansas yield for a 
question?
    Mr. Moran. I have no time but I am happy to yield to the 
gentleman from North Carolina.
    Mr. Hayes. In listening to your very persuasive, as always, 
argument and listening to the good doctor, it came to my 
attention at the break that there is a loan program within 
these buildings and it is available to members of the staff and 
it is one page in length. Is it possible that we could as a 
result of these meetings let the folks down the street know 
that that process and that application form is available? What 
do you think of that idea?
    Mr. Moran. Mr. Hayes, I have been pleased with your 
comments throughout this hearing today and you seem to just 
have the commonsense approach that there is a way to do this, 
and I had never thought about Rural Development. USDA has 
programs, and somebody earlier also said they are making loans 
to farmers all the time. There ought to be an ability to 
fashion something that is not so complex. I was completely 
surprised by the suggestion that a program with 78 pages of 
instructions is a role model. So again, I do think that what I 
said earlier in my questions with Dr. Hammer about the 
necessity of deciding whether we want to concede the point that 
it ought to be a scholarship program as compared to a loan 
forgiveness program, that seems to me to be the initial 
discussion or conclusion that we need to reach, and then we try 
to figure out how we cause this to happen. And Dr. Hammer has 
mentioned the farm bill. When we get to conference, the Senate 
has provisions related to this topic in their version of the 
farm bill, which gives us an opportunity, I hope in short 
order, to address whatever we need to do legislatively.
    The Chairman. Good discussion. Thank you.
    Mr. Hayes. Thank you, Mr. Chairman, and in his spare time I 
am sure Chandler could check and see how----
    The Chairman. I just gave him the look. He has his 
instructions.
    Well, I appreciate it, Dr. Hammer. I wasn't trying to do a 
play on words earlier, but I will take credit for it if they 
want to give it to me.
    Dr. Hammer. I thought it was great. I will get you a tee 
shirt with that on it.
    The Chairman. We appreciate you being here and the fact you 
came early and heard the other discussion, because I think that 
will be helpful to us as we try to deal with this. And I like 
your statement that you made when you were meeting with the 
Secretary in a previous meeting sometime back, ``Let us just 
get off square one and get going, the need is there.'' And it 
seemed to me like it was pretty clear the intent of the 
Congress when we wanted to address this and it has just been 
circled around, if you will. So with that, I appreciate it very 
much and I think we will bring this to a close. Do you have any 
closing statements you want to make?
    Dr. Hammer. No, only that I forgot to tell Mr. Hayes that 
my son went to the University of North Carolina in Chapel Hill 
so I also contributed funds to North Carolina when I was there. 
But thank you very, very much for giving the American 
Veterinary Medical Association the opportunity to comment. I 
hope it was helpful.
    The Chairman. Mr. Hayes, we will recognize you for any 
closing remarks you might like to make.
    Mr. Hayes. Again, Mr. Chairman, I think it has been very 
productive. We will use the information as you always do to, as 
Larry the Cable Guy would say, ``Get 'er done.''
    The Chairman. Okay. Once again, we want to thank you for 
being here and thank everyone that has participated today. I 
think we have learned some things we need to do. I think we 
obviously agree that the shortage of production-animal 
veterinarians currently exists and this shortage could have 
devastating effects on our nation's food supply. The number of 
practicing large-animal veterinarians is decreasing due to poor 
economic incentives. As a result there has been worsening of 
the current shortage of food-animal veterinarians. Many 
universities across the country including mine in Iowa State 
University College of Veterinary Medicine provide their 
students with state-of-the-art skills and knowledge. However, 
in order for these veterinarians to have a future ensuring our 
nation's needs, we must provide the veterinary graduates, and 
what you said very well, Dr. Hammer, with the financial 
opportunities they need.
    So with that, we will bring this to a close. Under the 
rules of the Committee, the record of today's hearing will 
remain open for 10 days to receive additional material and 
supplementary written responses from witnesses to any question 
posed by a Member of the panel.
    The hearing of the Subcommittee of Livestock, Dairy, and 
Poultry is adjourned. Thank you very much.
    [Whereupon, at 1 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
Questions Submitted to Dr. Gale Buchanan, Under Secretary for Research, 
 Education and Economics, U.S. Department of Agriculture, Washington, 
                                  D.C.
    Question 1. Of the funds appropriated for the National Veterinary 
Medical Service Act (NVMSA), how much was used to repay the loans of 
FSIS veterinarians that were hired before and after the transfer of 
funds?
    Answer. On June 6, 2007, a $750,000 reimbursable agreement was 
executed between CSREES and FSIS. None of the funds had been committed 
to anyone hired by FSIS prior to June 6, 2007. Since that time however, 
FSIS has committed $150,000 as hiring incentives to veterinarians for 
loan repayment.

    Question 2. In a November 14, 2008 letter to the Chairman Peterson, 
Dr. Buchanan outlined a laundry list of reasons why implementation 
would be difficult. Many of these listed barriers to implementation 
appear to be core or common functions of the USDA, including:

    a. rulemaking; application processing; certify the legitimacy of 
        the applicant and their debit;

    b. perform a credit and reference check of the applicant;

    c. perform background criminal checks and citizenship verification;

    d. develop and maintain a list of underserved areas; verify that an 
        applicant works in an underserved area;

    e. create rules and regulations for a breach of contract and 
        maintaining legal services;

    f. and to create an audit system for the entire program.

    Which of these functions can be done within the USDA currently, and 
what functions does the USDA need to develop?
    Answer. To our knowledge, none of the other agencies in USDA, each 
with its own legislative and regulatory authorities, has a program that 
achieves all of these common core functions.
    CSREES has experience in rulemaking, especially as it applies to 
financial assistance going to universities. Similarly, CSREES has 
experience in processing applications leading to various financial 
assistance instruments that provide funding to universities.CSREES does 
not have systems or personnel that deal with:

  <bullet> conducting citizenship verification;

  <bullet> performing credit checks;

  <bullet> cross referencing candidates with other Federal agencies 
        (including the Internal Revenue Service) to identify any other 
        existing Federal debt or participation in other Federal 
        programs;

  <bullet> verifying existing debt including the determination that the 
        debt arises from an approved source (i.e., not from a 
        candidate's family);

  <bullet> the creation of rules and regulations for a breach of 
        contract;

  <bullet> addressing individual contract breach.

    In general, all of CSREES' existing staff and systems work through 
agreements with universities and other organizational entities. CSREES 
has protocols in place for these entities to provide many of the 
certifications required for sound fiscal and programmatic management. 
Likewise, procedures are already in place to perform reference checks 
and provide legal services and CSREES could certainly develop fiscal 
audit procedures.
    Although CSREES can utilize Economic Research Service data and data 
supplied by veterinarian constituent groups to identify shortage areas, 
CSREES has no field staff to verify that participants are working in 
the area specified by their agreement. CSREES also has no mechanism 
through which to identify employment opportunities in these areas. In 
summary, the process involved is complex and would require significant 
time to implement and considerable infrastructure and resources to 
support.

                                  <all>

</pre></body></html>
